                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




                A short section of copied text appeared in a proposal1 describing a proposed
        Industry~UniversityCooperative Research Center. The copied text describes an administrative
        plan for the proposed collaborative research center. The text in question appears on the web sites
        of at least two NSF-funded research centers, in very much the same form, as a description of a
        successful administrative plan. The text reflects a "best practices" approach to center       ,
        administration. Other recent proposals from the PI and coPIs were evaluated, and showed no
        indication of copied text. The extent and nature of the copied text does not rise to an actionable


                  Accordingly, this case is closed.




                                                                                                             I




                                                                                                             I
                                                                                                             I




                                                                                                                 s

                                                                                                                 I




NSF OIG Form 2 (1 1/02)
